March 29, 2007

ELLIS A. BURGOYNE
VICE PRESIDENT, SOUTHWEST AREA

SUBJECT: Audit Report – Handling of a Potentially Explosive Ordnance at the
         Dallas Bulk Mail Center (Report Number SA-AR-07-001)

This report presents the results of our audit of the handling of a potentially explosive
ordnance at the Dallas Bulk Mail Center (BMC) (Project Number 06YR004SA000).
While the U.S. Postal Service Office of Inspector General (OIG) was conducting an
audit at the Dallas BMC, a U.S. Postal Service employee informed OIG auditors of a
potentially explosive ordnance found in the mailstream at the Dallas BMC. (See
Appendix A.) As a result, the OIG reviewed the policies, procedures, and practices of
the Postal Service for handling suspicious mail. Our review focused on events
surrounding the discovery of the ordnance and the actions of Postal Service personnel
during the incident.

                                     Background
On May 2, 2006, at around 4:00 p.m., a Postal Service employee at Station No. 3 of
East Primary at the Dallas BMC saw an object protruding from a box. The employee
asked another employee, a distribution mail clerk at Station No. 5 to examine the object.
The distribution mail clerk believed the object was “some sort of artillery shell” and
pulled it out through a hole in the box. The distribution mail clerk took the object and the
box to an area supervisor and asked the area supervisor whether “someone could come
to determine if it was real [live] or not.” The Manager, Distribution Operations, and a
Supervisor, Maintenance Operations, were called to inspect the object.

The Manager, Distribution Operations, arrived at East Primary and observed an empty
package and a large shell that had burst through the package. The Supervisor,
Maintenance Operations, also arrived at East Primary and, after inspection, believed the
object was an antique training round used for army tank and artillery practice drills. The
Supervisor, Maintenance Operations, called the Manager, Maintenance Operations,
who instructed him to take the object to a special package handling location outside the
building. The Supervisor, Maintenance Operations, moved the object to the special
package handling location as instructed. The Manager, Maintenance Operations,
informed his manager and called the Postal Inspection Service.
Handling of a Potentially Explosive Ordnance at the                                            SA-AR-07-001
 Dallas Bulk Mail Center



                             Objective, Scope, and Methodology
Our objective was to determine whether the Postal Service handled the potentially
explosive ordnance appropriately. We interviewed Postal Service officials to obtain
policies and procedures for handling suspicious mail. We reviewed documentation and
statements obtained from Postal Service and Postal Inspection Service officials involved
in the incident. We also reviewed training records to determine whether personnel
received training and guidance on handling suspicious mail.

We conducted this audit from August 2006 through March 2007 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. We discussed our
observations and conclusions with management officials on November 9, 2006 and
November 14, 2006 and included their comments where appropriate.

                                        Prior Audit Coverage
We did not identify any prior audits or reviews related to the objective of this audit.

                                                  Results

Dallas BMC employees mishandled the potentially explosive ordnance found on the
premises. Also, Dallas BMC management had not established a site-specific Integrated
Emergency Management Plan (IEMP) to ensure they could effectively respond to
bombs and suspicious mail.

Actions of Postal Service Personnel. A Postal Bulletin dated August 20051 provides the
following guidance for dealing with suspicious mail. (See Appendix B.) The bulletin
states, in part:

          PACKAGE          Don’t handle it. Isolate it.

          PEOPLE           Clear the area of people and notify your supervisor.

          PLAN             Contact the Postal Inspection Service and follow your facility
                           emergency plan.

Dallas BMC management informed us that this Postal Bulletin insert was posted at the
facility at the time of the incident. Additionally, management informed us they had given
stand-up talks on handling suspicious mail to employees on January 18, February 6,
and April 19, 2006, before the incident occurred. However, Postal Service employees,
including managers, did not follow established procedures for handling suspicious mail.

1
    Immediate Response Actions – Suspicious Mail and Unknown Powders or Substances, August 2005.




                                                       2
Handling of a Potentially Explosive Ordnance at the                                                SA-AR-07-001
 Dallas Bulk Mail Center


Although management provided stand-up talks and posted bulletins at the facility,
managers and employees need continuous, mandatory training and practice drills to
ensure employees fully understand the procedures for handling suspicious or
dangerous mail. Employees at the Dallas BMC did notify a supervisor, however they
handled the potentially explosive ordnance, did not isolate it timely, did not clear the
area of people, and moved it to the special package handling unit before contacting the
Postal Inspection Service. Because established procedures were not followed,
employees, customers, and critical assets were not appropriately safeguarded.

Integrated Emergency Management Plan. Dallas BMC management did not establish a
site-specific IEMP to respond effectively to potentially explosive ordnance.

A Postal Service memorandum dated January 13, 2004, established the IEMP as the
one plan for the Postal Service to use to mitigate, prepare for, respond to, and recover
from any natural disaster or man-made hazard. The IEMP establishes a standardized
emergency management process that incorporates Postal Service incident-specific and
planning efforts into a single comprehensive document that serves as the core guide for
emergency management.

Additionally, the Office of Emergency Preparedness has developed a standard IEMP
template to use as a guide for emergency management. Installations are required to
tailor the IEMP template to address specific processes and procedures and other
information pertinent to a site. Although the Postal Service does not have a specific
policy requiring the Dallas BMC to establish an IEMP, according to guidance from the
Office of Emergency Preparedness,2 all level 24 and above facilities should have
site-specific IEMPs, and the Dallas BMC is in this category.

In June 2006, Dallas BMC management initiated action to establish a site-specific IEMP
and planned to include appropriate annexes to address bombs and suspicious mail.
Establishing a site-specific IEMP with procedures for handling suspicious mail, providing
IEMP training to employees, and conducting practice drills should facilitate more
effective responses to suspicious mail incidents.

Recommendations

We recommend the Vice President, Southwest Area:

1. Require Dallas Bulk Mail Center management to participate in and provide
   continuous, mandatory training and practice drills for employees to ensure they
   understand the procedures for handling suspicious and dangerous mail.




2
    From the Office of Emergency Preparedness Knowledge Base, accessed on the Postal Service Intranet.




                                                         3
Handling of a Potentially Explosive Ordnance at the                          SA-AR-07-001
 Dallas Bulk Mail Center


2. Require Dallas Bulk Mail Center management to complete a site-specific Integrated
   Emergency Management Plan including procedures for handling suspicious and
   dangerous mail and implement plan requirements.

Management’s Comments

Management agreed with our finding and recommendations and stated that Dallas BMC
management is required to participate in, and provide continuous mandatory training for
handling suspicious mail. Management also stated they have provided service talks
and conducted table top exercises and practice drills on explosives and suspicious mail.
In addition, management stated they have completed a site-specific IEMP.
Management’s comments, in their entirety, are included in Appendix C.

Evaluation of Management’s Comments

Management’s comments are responsive to recommendations 1 and 2. Management’s
actions, taken and planned, should address the issues identified in the finding, and,
ultimately, help ensure employees understand procedures for handling suspicious and
dangerous mail.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea L. Deadwyler, Director,
Inspection Service and Facilities, or me at (703) 248-2100.


  E-Signed by Tammy Whitcomb
 ERIFY authenticity with ApproveI



Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc:     William C. Rucker
        Brenda L. Baugh
        John H. Bridges
        Michele L. Culp
        Deborah Kendall




                                                      4
      Handling of a Potentially Explosive Ordnance at the       SA-AR-07-001
       Dallas Bulk Mail Center



             APPENDIX A. PHOTOGRAPH OF POTENTIALLY EXPLOSIVE
                               ORDNANCE




Photograph taken by OIG staff.




                                                            5
Handling of a Potentially Explosive Ordnance at the       SA-AR-07-001
 Dallas Bulk Mail Center



APPENDIX B. POSTAL BULLETIN FOR HANDLING SUSPICIOUS MAIL




                                                      6
Handling of a Potentially Explosive Ordnance at the       SA-AR-07-001
 Dallas Bulk Mail Center


                   APPENDIX C. MANAGEMENT’S COMMENTS




                                                      7
